                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 109090056                                                                  Page 1 of1



         We conducted an investigative review of a community college award. Upon review of the
         expenses of the subject institution's1 NSF award,2 we determined that funds were appropriately
         expended and adequate supporting documentation was maintained for award expenses. No fraud,
         waste, or abuse of NSF funds occurred.

         Accordingly, this case is closed.




         2




NSF OIG Form 2 (11/02)
